HHS/OIG-Audit--"Review of Maryland Disability Law Center, Baltimore, Maryland,(CIN:A-03-97-00515)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Maryland Disability Law Center, Baltimore, Maryland," (A-03-97-00515)
March 20, 1997
Complete
Text of Report is available in PDF format (877 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to evaluate the Maryland Disability Law Center (MDLC) financial management practices
and examine fiscal records and expenditures. The MDLC's financial management practices were generally sufficient to ensure
that expenditures charged to the ADD and CMHS grants were allowable, allocable, and reasonable. The MDLC, however, did
not report program income correctly in its FY 1995 and 1996 financial status report, made unsupported cost transfers at
the end of FY 1996, and had unallowable costs relating to local meals. In addition, the MDLC's policies and procedures
need to be
updated.